               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Every Door Direct Mail-Retail

                       Audit Report




                                              May 7, 2012

Report Number MS-AR-12-004
                                                                            May 7, 2012

                                                        Every Door Direct Mail-Retail

                                                        Report Number MS-AR-12-004




IMPACT ON:
Policies and procedures for transitioning
and implementing Every Door Direct           WHAT THE OIG RECOMMENDED:
Mail-Retail® (EDDM-R) as a permanent         We recommended the vice president,
market-dominant product. EDDM-R was          Domestic Products, provide a timely
designed to reduce the complexity and        request to the Postal Regulatory
expense of direct mail for small and         Commission to add EDDM-R as a
medium-sized businesses by simplifying       permanent product; develop better
mail entry. The EDDM-R product is a          sources and methodologies to measure
Standard Mail® flat weighing less than       how well the product is meeting goals;
3.3 ounces that requires mailers to use      evaluate, monitor, and test controls;
simplified addressing.                       continue efforts to strengthen controls
                                             and streamline acceptance procedures;
WHY THE OIG DID THE AUDIT:                   and monitor and evaluate product costs.
Our objective was to evaluate the status
of the planned transition of EDDM-R          WHAT MANAGEMENT SAID:
from an experimental product to a            Management agreed with the findings
permanent market-dominant product.           and recommendations and has
                                             established target dates for
WHAT THE OIG FOUND:                          implementation beginning no later than
The EDDM-R product is rapidly                August 2012. Management did not
approaching the annual revenue cap           agree with the other impact of
imposed by law for experimental              $150 million.
products. Consequently, the U.S. Postal
Service must act quickly to transition the   AUDITORS’ COMMENTS:
product from experimental to permanent       Management’s comments are
status to avoid disrupting marketing         responsive and corrective actions
momentum. In transitioning the product       should resolve the issues identified in
to permanent status, the Postal Service      the report. We believe that in light of
could improve its methodology for            control weaknesses and the rapid
measuring product success, strengthen        growth of EDDM-R, $150 million of
controls over acceptance and                 Other Impact conservatively reflects the
verification, and better monitor product     amount of revenue at risk.
costs.
                                             Link to review the entire report
May 7, 2012

MEMORANDUM FOR:           GARY C. REBLIN
                          VICE PRESIDENT, DOMESTIC PRODUCTS




FROM:                     Darrell E. Benjamin, Jr.
                          Deputy Assistant Inspector General
                           for Revenue and Systems

SUBJECT:                  Audit Report – Every Door Direct Mail-Retail
                          (Report Number MS-AR-12-004)

This report presents the results of our audit of the Every Door Direct Mail-Retail
(EDDM-R) product (Project Number 12RG018MS000). Our objective was to evaluate
the status of the planned transition of EDDM-R from an experimental product to a
permanent market-dominant product.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director,
Marketing and Service, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Paul Vogel
    David Mastervich
    Corporate Audit and Response Management
Every Door Direct Mail-Retail                                                                                          MS-AR-12-004



                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Revenue Cap ....................................................................................................................... 2

Measuring Product Success ............................................................................................... 2

Enhanced Management Controls ....................................................................................... 3

Costs of the Every Door Direct Mail-Retail Product ........................................................... 4

Recommendations .............................................................................................................. 4

Management’s Comments .................................................................................................. 5

Evaluation of Management’s Comments ............................................................................ 5

Appendix A: Additional Information..................................................................................... 7

   Background ...................................................................................................................... 7

   Objective, Scope, and Methodology ............................................................................... 7

   Prior Audit Coverage ....................................................................................................... 8

Appendix B: Management’s Comments ............................................................................. 9
Every Door Direct Mail-Retail                                                                         MS-AR-12-004



Introduction

This report presents the results of our audit of the Every Door Direct Mail-Retail®
(EDDM-R) product 1 (Project Number 12RG018MS000). Our objective was to evaluate
the status of the planned transition of EDDM-R from an experimental product to a
permanent market-dominant product. This self-initiated audit addresses strategic risk.
See Appendix A for additional information about this audit.

In March 2011, pursuant to 39 U.S.C. § 3641, the U.S. Postal Service launched a
market test of the experimental market-dominant product, EDDM-R. 2 The law allows the
Postal Service to test experimental products under certain conditions but limits the trial
to 24 months and the revenue to $50 million for any year.

EDDM-R was designed to reduce the complexity and expense of direct mail for small
and medium-sized businesses by providing the opportunity to mail without permits or
related fees and simplifying mail entry. The EDDM-R product is a Standard Mail® flat
weighing less than 3.3 ounces that requires mailers to use simplified addressing. The
EDDM-R product is intended to serve small and medium-sized businesses that do not
currently use Postal Service products by reducing the complexity and expense of direct
mail. The EDDM-R product allows mailers to use simplified addressing, such as “Postal
Customer,” which eliminates the need for obtaining and printing detailed addresses. The
product also includes the convenience of local entry and payment at retail units, the
simplicity of a single price, and a waiver of all permit 3 and mailing fees.

The Postal Service has been facing a financial crisis for the last several years and its
outlook is not expected to improve in the near future. The Postal Service has been
unable to cut costs quickly enough to keep pace with declining mail volume or generate
additional revenue to offset the loss. A U.S. Postal Service Office of Inspector General
(OIG) white paper 4 reported that appealing to small businesses with simplified
addressing for direct mail could potentially improve the Postal Service’s annual net
income by an estimated $1.2 billion.

Conclusion

The EDDM-R product market test has shown potential for generating significant new
revenue for the Postal Service. Having already exceeded the Postal Service’s original
projections of about $10 million in annual revenue, the product is rapidly approaching
the $50 million annual revenue cap imposed by law. Consequently, the Postal Service
1
  This report uses the word ‘product’ generically, not as defined in the Postal Accountability and Enhancement Act of
2006.
2
  The product was initially named Marketing Mail Made Easy but was changed to EDDM-R.
3
  You must hold a permit (authorization to mail) and pay an annual mailing fee at every Post Office where you want to
enter and pay for bulk or commercial mail.
4
  Simplified Address Mail: An Easier Way for Small Businesses to Reach Local Customers for Small Businesses to
Reach Local Customers (Report Number RARC-WP-11-004, dated May 10, 2011).
                                                            1
Every Door Direct Mail-Retail                                                  MS-AR-12-004



must act quickly to transition the product from experimental to permanent status to
avoid disrupting marketing momentum. In anticipation of a permanent product, the
Postal Service should also develop a clearer methodology for measuring success,
enhance management controls over EDDM-R, and monitor product costs.

Revenue Cap

Although the Postal Service intends to transition EDDM-R from an experimental to a
permanent product within the next few months, it must act quickly to meet the legal
requirements for new market-dominant products. EDDM-R sales quickly exceeded
revenue expectations and have seen growth rates averaging about 20 percent per
month. As a result, the product may exceed the $50 million revenue annual limit
imposed by law 5 by March 2013.

While the law does not mandate a consequence if an experimental product exceeds the
$50 million statutory revenue limit, the Postal Regulatory Commission (PRC) could
terminate the market test or impose fines against the Postal Service. Termination or
suspension of the market test would be disruptive to customers and could stifle the
impressive sales momentum achieved thus far.

The Postal Service is collecting revenue and volume data on EDDM-R sales, which it
intends to use to support its request to the PRC. However, Postal Service efforts have
mostly focused on promoting EDDM-R and officials have not yet begun to draft a
request for permanent status. The Postal Service must expedite its efforts to prepare a
request for permanent status, with particular focus on potentially difficult requirements,
which include impact on the market place, small business concerns, and the
requirement that the product bear its costs.

Measuring Product Success

The Postal Service could improve its methodology for determining the extent to which
EDDM-R is meeting its goal of attracting small and medium-size businesses that have
not previously used direct mail. Currently, the Postal Service does not directly measure
the number of existing customers shifting from other products to EDDM-R. Such
information would substantiate the Postal Service’s requirements for transitioning the
product to permanent status, in particular the provisions of the law concerning impact on
the marketplace and small business concerns. Stronger data might also provide some
assurance to mail service providers that have expressed concern that EDDM-R might
attract their existing customers rather than generate new customers.

The Postal Service provides periodic reports on the status of the EDDM-R market test
that include information about the customers using a different Postal Service product.
The Postal Service determines this number based on whether the mailer had a mailing
permit and used that permit 90 days before mailing its EDDM-R product. The Postal
Service used this methodology because the data are available, simple, and, although
5
    39 U.S.C. 3622.


                                             2
Every Door Direct Mail-Retail                                                                          MS-AR-12-004



the choice of 90 days was somewhat arbitrary, gives some sense of whether or not a
customer regularly uses direct mail. Furthermore, the Postal Service did not want to
complicate the registration process with additional questions and explanations.
However, as this product is transitioned to a permanent product, a more accurate
measure of the number of new customers versus the number of existing customers
shifting from other products to EDDM-R is critical for market intelligence and product
evaluation.

Enhanced Management Controls

EDDM-R mail acceptance and verification procedures include verification of the mailer’s
postage statement, sample mailpiece, carrier route information, dimension, and weight.
Although these procedures provide some measure of revenue protection, further
improvements are necessary as the EDDM-R product is more widely used and
generates more revenue.

For example, we noted that improvements could be made to the payment acceptance
and mail verification processes. Specifically:

   There is not always a separation of duties between those who receive payment and
    those who verify the mail. Unlike business mail acceptance clerks, window clerks
    accepting EDDM-R mail receive cash, check, or debit card payments for EDDM-R
    mailings.

   Bundle and payment verification might not be performed before the mail is
    dispatched if customers bring the mail to the retail unit loading dock rather than the
    retail counter.

   Input errors can occur when retail associates manually input volume and payment
    information. The Postal Service has not established specific timelines, but is working
    to streamline and enhance the Point-of-Sale and Business Gateway Systems related
    to the EDDM-R program to strengthen controls and enhance the customer
    experience. Such improvements include a system-generated, barcoded invoice that
    would be presented to the Postal Service and scanned by a retail associate. These
    system improvements would reduce the manual verification processes that increase
    the risk of input errors.

Currently, the Postal Service is not testing or monitoring acceptance and verification
controls because the risk is lower while product volume and revenue are relatively low.
The Postal Service plans to include EDDM-R in its Sarbanes-Oxley testing in FY 2013.
However, the risk continues to grow as EDDM-R sales are increasing at a rapid pace
and could see even greater growth when the Postal Service transitions the product to
permanent status. We identified $150 million of revenue potentially at risk 6 related to

6
 Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
currently provided by the Postal Service). The amount at risk is based on 3 fiscal years of revenue at the cap of $50
million per year currently imposed by 39 U.S.C. §3641.


                                                          3
Every Door Direct Mail-Retail                                                                            MS-AR-12-004



weakness in management controls. As the Postal Service transitions the product to
permanent status, it must reassess risk and control procedures and plan for testing and
monitoring compliance.

Costs of the Every Door Direct Mail-Retail Product

One of the requirements for new products is that it bear its direct and indirect costs. 7
The Postal Service believes that EDDM-R meets that criteria based on the cost
coverage for Standard Mail saturation 8 flats. However, EDDM-R costs might be lower
than the average for saturation mail because mail handling and transportation costs are
limited for EDDM-R. EDDM-R costs might also be lower because of the reduced time
required for each acceptance transaction, through volume size limits, bundling
requirements, a single price, and a simplified postage statement.

The Postal Service did not create comprehensive cost information for the market test,
and, because EDDM-R volume is low, it is not currently practical to track costs.
However, as the Postal Service transitions the product to permanent status and volume
rises, the Postal Service must monitor costs to ensure the cost assumptions are
accurate. Increased volume and changes to product requirements or procedures, such
as complicating acceptance procedures, could impact costs.

Recommendations

We recommend the vice president, Domestic Products:

1. Provide a timely request to the Postal Regulatory Commission to add Every Door
   Direct Mail-Retail as a permanent product by identifying and obtaining the necessary
   data and information to meet regulatory requirements.

2. Develop better sources or methodologies to more accurately measure the extent to
   which Every Door Direct Mail-Retail is meeting its goals.

3. Review management controls over Every Door Direct Mail-Retail acceptance,
   conduct a risk assessment, and plan for monitoring and testing of controls.

4. Continue plans to enhance the Business Gateway and Point-of-Sale Systems to
   strengthen controls and streamline the Every Door Direct Mail-Retail process and
   develop timelines for implementation.

5. Monitor product costs and evaluate cost impacts of any changes to Every Door
   Direct Mail-Retail product specifications or procedures.



7
 39 U.S.C. §3622(c)(2).
8
 Saturation mail is a carrier route price that requires preparing the mail in walk sequence, with mail that is 90 percent
or more of the active residential addresses or 75 percent or more of the total number of active possible delivery
addresses per route receiving this mail.


                                                            4
Every Door Direct Mail-Retail                                                     MS-AR-12-004




Management’s Comments

Management agreed with our findings and recommendations. Regarding
recommendations 1 and 2, management stated they have prepared a business case for
the product and will file with the PRC by July 2012. Management has also made recent
enhancements to current tracking tools and anticipates more significant methodologies
for measurement with the integration to USPS.COM in August 2012.

Regarding recommendation 3, management stated that EDDM-R was reviewed by a
Sarbanes-Oxley compliance team which made recommendations related to separation
of duties that will be incorporated in August 2012. Other solutions will be developed by
Retail Operations and implemented by August 2012.

Regarding recommendation 4, management stated that they have taken steps to
address the customer registration process and payment system, resulting in more
effective controls and a streamlined customer experience. They will implement a
phased solution beginning in August 2012, with anticipated completion by June 2013.

Regarding recommendation 5, management stated that the Costing Department will
determine a methodology for monitoring and evaluating costs as part of the PRC filing
scheduled for July 2012.

Management did not agree with the $150 million revenue at risk related to weaknesses
in management controls and stated that the risk of weakness in separation of duties
applied to a small percentage of units, that it is not clear that verification activities are
not being performed; and that retail units have been accepting business mail for many
years.

See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Regarding
management’s comments concerning the $150 million revenue at risk, we believe that
amount conservatively reflects the amount of EDDM-R revenue at risk in light of the
control weaknesses we identified and the rapid growth of EDDM-R. Management
indicated the risk of weakness in separation of duties exists at a small percentage of
units. While this is true for EDDM mail which is accepted at business mail entry units
(BMEU), the potential for this risk for EDDM-R exists at virtually all retail units, as Postal
Service policy currently allows retail clerks who accept payment to also verify the mail.
We agree with management’s statement that it is unclear whether verification activities
are being performed. As EDDM-R volume grows, it will be important for the Postal
Service to monitor and test controls.




                                              5
Every Door Direct Mail-Retail                                                MS-AR-12-004



Concerning management’s statement that acceptance of EDDM-R does not constitute a
new activity for retail units, unlike BMEUs which have clerks and technicians with formal
training in business mail acceptance, many retail units do not have staff with those
qualifications or experience.




                                            6
Every Door Direct Mail-Retail                                                 MS-AR-12-004




                                Appendix A: Additional Information

Background

Title 39 U.S.C. § 3641 allows the Postal Service to test experimental products under
certain conditions. The law limits the experimental time to 24 months and revenue to
$10 million in any given 12-month period, but authorizes the PRC to grant an exemption
of up to $50 million. On January 12, 2011, the Postal Service filed a notice, pursuant to
39 U.S.C. § 3641, announcing its intent to initiate a market test of an experimental
market-dominant product, EDDM-R. The PRC approved the Postal Service’s request to
market test EDDM-R and the Postal Service launched EDDM-R in March 2011.
Because sales of the EDDM-R product grew more quickly than anticipated, the Postal
Service requested the PRC to grant an exemption to the $10 million revenue cap. The
PRC granted it in January 2012.

EDDM-R was designed to reduce the complexity and expense of direct mail for small
and medium-sized businesses by providing the opportunity to mail without permits or
related fees and simplifying mail entry. The EDDM-R product is a Standard Mail flat
weighing less than 3.3 ounces that requires mailers to use simplified addressing.
Simplified addressing, such as “Postal Customer,” eliminates the need for obtaining
address lists and potentially reduces printing time and costs. The product also includes
the convenience of local entry and payment at retail units, the simplicity of a single
price, and a waiver of all permit and mailing fees. Other restrictions apply, such as the
mailing must comprise a minimum of one full carrier route and the daily quantity cannot
exceed 5,000 pieces per delivery unit.

To request permanent status for the EDDM-R product, the Postal Service must follow
the provisions of 39 U.S.C. §3642 and regulations under 39 CFR 3020.32. Those
requirements include such stipulations as the Postal Service must file with the PRC and
publish in the Federal Register a notice setting out the basis for its determination that
the product satisfies the criteria for new products. The PRC is under no legal time
constraint to review and decide on requests to add new products. The time required
would depend on a number of factors, such as the strength of data and supporting
information the Postal Service provides to demonstrate that the product meets
requirements and show the complexity and controversy of related issues. Typically, the
PRC allows 30 days for public comment and time for the Postal Service to respond and
for the PRC to evaluate comments.

Objective, Scope, and Methodology

Our objective was to evaluate EDDM-R planned transition from experimental to
permanent status as a market-dominant product. Our audit scope focused on EDDM-R
and covered the period from March 2011 through January 2012. Our methodology
included a review of laws, regulations, policies, and procedures related to EDDM-R;




                                                7
Every Door Direct Mail-Retail                                                    MS-AR-12-004



interviews with Postal Service staff responsible for EDDM-R; and review of supporting
documents and data.

We conducted this performance audit from January through May 2012 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 27, 2012, and included their
comments where appropriate.

We assessed the reliability of EDDM-R revenue data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              8
Every Door Direct Mail-Retail                                   MS-AR-12-004




                            Appendix B: Management’s Comments




                                            9
Every Door Direct Mail-Retail        MS-AR-12-004




                                10
Every Door Direct Mail-Retail        MS-AR-12-004




                                11
